IN THE SUPREME COURT OF THE UNITED STATES
No. 19-224
BRYAN JAMES STROTHER, SFC.,
California Army National Guard,
Petitioner,
v.
DAVID S. BALDWIN, Adjutant General,
State of California Army National Guard;
MIKE MCCORD, Pentagon Comptroller;
DEFENSE FINANCE AND ACCOUNTING SERVICES;
United States Department of Defense,
Respondent.
CERTIFICATE OF SERVICE
I, Daniel C. Willman, counsel for Petitioner Bryan James Strother, hereby
certify per S.Ct. Rule 29 (4) that on January 30, 2020, I served three (3) copies of
Petitioners’ Petition for Rehearing (in support of Petition for a Writ of Certiorari)
dated January 30, 2020, per Rule 33(g) Certificate of Compliance and Proof of service,
upon the address below of the Office of the Solicitor General of the United States via
The United States post office priority mail, with Tracking # 9505510435010029218255
which will be included in efiling: 40 copies were sent to The U.S. Supreme Court using
the same method with Tracking # 9505510435010029218262 ). I further certify that
all parties required to be served have been served.

At the end of each brief:

Certificate of Counsel Supreme Court Rule 44(1). Per Rule 38, $200. Rehearing
fee submitted with filing.
Solicitor General of the United States,
Room 5616, Department of Justice,
950 Pennsylvania Ave., N. W.,
Washington, Dc 20530-0001.

Dated: January 30, 2020

S/Daniel C. Willman
Daniel C. Willman
Counsel for Petitioner
P.O. 606
Pinckney, MI 49169
248-231-0705
danielcwillman@aol.com

